fl

5334

-

3fn the 6upretue Court of the
Eintteb eptateo
Cecile A. Brown,

Petitioner,
V.

Solicitor General of the United States,

Respondent.
ON WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT

BRIEF APPELLANT OF PRO SE / PETITIONER
FOR DECEASED Vet. William H Ellis IN SUPPORT
OF APPELLANT RESPECTING MOOTNESS

Party: Cecile A. Brown,
APPELLANT
Pro se of Record
3222 Violet St.,
Apt. A
Alexandria, LA 71301
(318) 528-0335
browncecile@vahoo.co

Pro Se for Appellant/Petitioner
kECEIVED
latii 1 3 2021
pp

°EmciFcTai RsK

QUESTION PRESENTED
Whether the doctrine of voluntary cessation applies
less stringently to governmental defendants than to
private ones?
The Supreme court has never suggested that
government defendants should get special treatment
under the voluntary-cessation doctrine.
Supreme Court should reject a presumption in favor of
government defendants when applying voluntary —
cessation principles.

11

TABLE OF CONTENTS
QUESTION PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii
iii

INTEREST OF THE Appellant/ Petitioner

1

INTRODUCTION AND SUMMARY OF
ARGUMENT

3

ARGUMENT

5

I. The doctrine of voluntary cessation should
apply equally to governmental
and private defendants
5
CONCLUSION

15

iii
APPENDIX
APPENDIX D
APPENDIX E
REASONS FOR GRANTING THE PETITION
Pursuant to Rule 10, A state court or a United States
court of appeals has decided an important question of
federal law that has not been, but should be, settled
by this Court, or has decided an important federal
question in a way that conflicts with relevant
decisions of this Court.
Cases resolving clear conflicts of law
0 Important or unique cases
0 Interesting cases
Appellate Jurisdiction.
Article III, § 2, cl. 2, which provides that all
jurisdiction not original is to be appellate, "with such
Exceptions, and under such Regulations as the
Congress shall make," has been utilized to forestall a
decision which the congressional majority assumed
would be adverse to its course of action.
28 U.S. Code § 1251(a) - Original jurisdiction

iv
PETITION FOR A WRIT OF CERTIORARI
TABLE OF AUTHORITIES
Page(s)

Cases
ACLU of Massachusetts v. United States
Conference of Catholic Bishops,

705 F.3d 44 (1st Cir. 2013)

13

ACLU of1V. Cal. v. Azar,

No. 16-CV-03539-LB,
2018 WL 4945321
(N.D. Cal. Oct. 11, 2018)

13

Already, LLC v. Nike, Inc.,

568 U.S. 85 (2013)
Baranowski v. Hart,

486 F.3d 112 (5th Cir. 2007)

. . .. ........

...9

Belmont Abbey Coll. v. Schein's,

No. 1:11-cv-01989-JEB
(D.D.C. Apr. 23, 2012)

-

Buckhannon Bd. & Care Home, Inc. v.
West Va. Dep't ofIlealth &
Human Res.,

532 U.S. 598 (2001)

11

V

Chemical Producers & Distributors
Ass'n v. Helliker,
463 F.3d 871 (9th Cir. 2006)

7

City of Erie v. Paps A.M.,
529 U.S. 277 (2000)

10

City of Mesquite v. Aladdin's
Castle, Inc.,
455 U.S. 283 (1982)

5, 6, 7

DeFunis v. Qdegaard,
416 U.S. 312 (1974)

5, 15

Dorseyv. United States,
567 U.S. 260 (2012)
E.I. Dupont de Nemours & Co. v. Invista B. V,
473 F.3d 44 (21 Cu.
r 2006)

12

7- 8

Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117 (2016)

12

Federation ofAdvert. Indus.
Representatives, Inc. v. City of Chicago,
326 F.3d 924 (7th Cir. 2003)

7

Franciscan Alliance, Inc. v. Azar,
No. 16-108 (N.D. Tex. June 12, 2019)

13

Freedom From Religion Found., Inc. v.
County ofLehigh,
No. 17-3581 (3d Cir. Jan. 29, 2019)

Friends of the Earth, Inc. v. Laidlaw

14

vi
Environmental Services (TOC), Inc.,
528 U.S. 167 (2000)

passth

Gardner v. Riska,
444 F. App'x 353 (11th Cix. 2011)....,;.

9

Gaylor v. Mn uchin,
919 F.3d 420 (7th Cir. 2019)
Guzziv. Thompson,
No. 07-1537, 2008 WL 2059321
(1st Cir. May 14, 2008)

14

1, 10

Harvest Family Churcliv. FEMA, No.
H-17-2662, 2017 WL 6060107
(S.D. Tex.)
Heyerv. United States Bureau of Prisons,
849 F.3d 202 (4th Cir. 2017)

9, 10

Horton v. 11/fidwest Geriatric Mgmt., LLC,
No. 18-1104 (8th Cir. Jan. 29, 2019)

14

Lane v. Pena,
518 U.S. 187 (1996)

11

Linehan v. Crosby,
No. 4:06-cv-00225-MP-WCS, 2008 WL
3889604 (N.D. Fla. Aug. 20, 2008)
Little Sisters of the Poor Jeanne Jugan
Residence v. California,
No. 18-1192 (U.S. Mar. 13, 2019)
Marcavage v.. National Park Sew.,

9

13

666 F.3d 856 (3d Cir. 2012)
Mayor of the City of New York v. Council
of the City of New York,
38 A.D.3d 89 (2006)

6

12

McAllen Grace Brethren Church v. Jewell,
No. 7:07-ev-00080
(S.D. Tex. Mar. 10, 2015)
2
Memphis Cmty. Sch. Dist. v. Stachura,
477 U.S. 299 (1986)
11
11fitchum v. Foster,
407 U.S. 225 (1972)

8

Moussazadeh v. Texas Dep't of Criminal
Justice,
364 F. App'x 110 (5th Cir. 2010)

1

Moussazadeh v. Texas Dep't of Criminal
Justice,
703 F.3d 781 (5th Cir. 2012)

9

National Cable & Telecomms. Ass'n v.
Brand X Internet Servs.,
545 U.S. 967 (2005)
Parents Involved in Cmty. Sch. v. Seattle
Sco.l Dis.t No. 1,
551 U.S. 701 (2007)
Pearson v. Callahan,
555 U.S. 223 (2009)

12

6
11

Rich v. Secretary, Ronda Department of
Corrections,
716 R3d 525 (11th Cir. 2013),

1, 9

Smith v. Allen,
502 F.3d 1255 (11th Cir. 2007)
Sossamon v. Lone Star State of Tex.,
560 F.3d 316 (5th Cir. 2009) ..
Sossamon v. Texas,
563 U.S. 277 (2011)

11
...... . . .

11

Trinity Lutheran Church of Columbia,
Inc. v. Comer,
137 S. Ct. 2012 (2017)

6

Troiano v. Supervisors of Elections,
382 F.3d 1276 (11th Cir. 2004)

6, 7

United States v. Concentrated Phosphate
Export Assii,
393 U.S. 199 (1968)

3, 5

United States v. W.T. Grant Co.,
345 U.S. 629 (1953)
US Airways, Inc_ v. McCutchen,
569 U.S. 88 (2013)
Other Authorities
Neal Devins & Saikrishna Bangalore
Prakash, Fifty States, Filly Attorneys
General, and Fifty Approaches to the

6

15
-

12

INTEREST OF THE Appellant)
Brown for Deceased Vet. William H. Ellis has
represented deceased father since age 18 though VA,
BVA, and now has to sue because VA did not pay at the
finality of litigation case in December of 2020. Brown
has a Bachelor's degree for AS, Business and intends
to finish her degree in Business. She has appealed
through the Ninth Circuit and now has to face the
mootness doctrine with the Supreme Court. Brown is a
substitute of claimant in her deceased father's case.
Brown has interest in the underlying merits of this
case. Brown requests the Supreme Court to address all
issues or the main question which is at issue in an
action. Brown is concerned, however, that the
argument offered in respondents' suggestion of
mootness— that "a governmental. defendant's change
in law [falls] beyond the reach of the voluntary
cessation doctrine," (at 18)—would arm governmental
defendants with a powerful new tool for frustrating
constitutional rights.
Brown experience shows that governmental
defendants frequently use strategic policy changes to
try to moot meritorious claims.

1 No

counsel for a party authored any portion of this brief or made
any monetary contribution toward its preparation or submission.
No notice of blanket consent will be filed because of financial
difficulty. Brown will not be appearing before the court only in
writing. Please notify Brown at (318)528-0335 if exception is not
acceptable.

2

In many of these situations, governmental
defendants used strategically timed policy changes to
try to preserve favorable outcomes or to avoid rulings
against them. This brief to encourage the Court to

apply its ordinary test for voluntary cessation—that
voluntary cessation does not moot a case unless the
defendant shows it is "absolutely clear" that the
challenged conduct cannot be expected to recur,
Friends of the Earth, Inc. v. Laidlaw Environmental
Services (TOC), Inc., 528 U.S. 167, 189 (2000)—just as
rigorously to governmental defendants as to private

ones.

INTRODUCTION AND SUMMARY OF ARGUMENT
If angels were to govern men, the doctrine of
voluntary cessation would be unnecessary. Courts
could trust that when the government ceased
questionable conduct, that conduct would not recur.
But in a government of mere mortals, the government

has just as much incentive as a private party—and
even more opportunity—to use voluntary cessation to
strategically moot cases.
Accordingly, this Court has adopted a stringent
standard for assessing claims of mootness based on a
defendant's voluntary cessation of challenged conduct:
the defendant must show it is "absolutely clear" that
the conduct cannot be expected to recur. Laidlaw, 528
U.S. at 189 (citing United States v. Concentrated
Phosphate Export Ass'n, 393 U.S. 199, 203 (1968)).
This standard curb the harms that result when
disputes are dismissed for mootness only to arise again

3

when the defendant resumes the prior conduct—harms
to judicial economy, to the public interest, and to the
integrity of the legal process itself.
This standard has worked well for many years—at
least for private defendants. Some lower courts,
however, have softened the "absolutely clear" standard
for governmental defendants, holding that
governmental defendants face a lighter burden to
establish mootness. But this has things exactly
backwards. Government defendants are generally both
readier and abler than private defendants to use
voluntary cessation to strategically moot claims—
readier, because they are repeat litigants with a strong
interest in curating precedent, and abler, because they
are often immune from damages claims that defeat a
claim of mootness. Meanwhile, cases against the
government—often involving the Constitution and'
often of great interest to the wider public—are exactly
the cases for which the public interest in settling
important legal questions is at its apex.
The City nonetheless invites this Court to bless the
lower courts' doctrinal drift, arguing that
governmental defendants, unlike private ones, can be
trusted to make policy changes "in good faith."
Suggestion 17-18. But even accepting this (debatable)
proposition, it wouldn't get the city where it needs to
go. The need for a stringent voluntary cessation
standard depends not on a defendant's suspect motives
at the time it changes its conduct, but on the
defendant's opportunity to revert to its previous
conduct in the future. That opportunity exists in
spades for governmental defendants. Policy changes,
unlike injunctions, do not bind lawmakers in the

4

future. Because government personnel change with
every election, the official deciding whether to resume
a discontinued policy may be different from the one
who decided to discontinue it in the first place, with
different views about the policy's legality, defensibility,
or wisdom.
The doctrine of voluntary cessation, then, serves
particularly important purposes for governmental
defendants. And the Court should decline the
invitation to water it down—at least until we're
governed by angels.
ARGUMENT
I. The doctrine of voluntary cessation should apply
equally to governmental and private defendants.

1. "It is well settled that a defendant's voluntary
cessation of a challenged practice does not deprive a
federal court of its power to determine the legality of
the practice." City ofMesquite v. Aladdin's Castle, Inc.,
455 U.S. 283, 289 (1982). The only exception to this
rule is if the defendant demonstrates it is "absolutely
clear" that the practice "could not reasonably be
expected to recur." Laidlaw, 528 U.S. at 189 (quoting
Concentrated Phosphate Export Ass's, 393 U.S. at
203). This standard is "stringent," and the "heavy
burden" of meeting it falls on the defendant— "the
party asserting mootness."Ibid
This standard serves important pm-poses. If a
defendant's voluntary change of conduct mooted a case,
"the courts would be compelled to leave 'Wile
defendant * * * free to return to his old ways,"' no
matter how far the litigation has progressed. City of
Mesquite, 455 U.S. at 289 n.10 (citation omitted). This

5

would both waste judicial resources, Laidlaw, 528 U.S.
at 191192, and thwart "the public interest in having
the legality of the practices settled." DeFunis v.
Odegaard, 416 U.S. 312, 318 (1974).
In applying this standard, the 'Court has not
distinguished between governmental and private
defendants. Rather, the Court has held governmental
defendants to the same high standard. In City of
Mesquite, for instance, the defendant city "repeal[ed]
the objectionable language" in an ordinance after a
district court held the ordinance unconstitutional;
nonetheless, this Court held the case was not moot
because there was "no certainty" that the city would
precisely the same provision if the
not "reenact
District Court's judgment were vacated." 455 U.S. at
289. More recently, this Court has repeatedly applied
the "absolutely clear" standard against governmental
defendants, never suggesting that the standard for
governmental defendants is different than for private
ones. See, e.g., Trinity Lutheran Church of Columbia,
Inc. v. Comer, 137 S. Ct. 2012, 2019 n.1 (2017) ("The
Department has not carried the 'heavy burden' of
making 'absolutely clear' that it could not revert to its
policy of excluding religious organizations." (Quoting
Laidlaw, 528 U.S. at 189)); Parents Involved in Cmty.
Sch. v. Seattle Sch. Dist., No. 1, 551 U.S. 701, 719
(2007) ("Voluntary cessation does not moot a case or
controversy unless 'subsequent events maikel it
absolutely clear that the allegedly wrongful behavior
could not reasonably be expected to recurf.1").
2. Nevertheless, some lower courts have applied a
"lighter burden" to governmental defendants.
Sossainon v. Lone Star State of Tex., 560 F.3d 316, 325

6

(5th Cir. 2009). According to these courts, "government
actors" are entitled to "a presumption of good faith"
because "they are public servants, not self-interested
private parties." /bid. Thus, courts "assume that
formally announced changes to official governmental
policy are not mere litigation posturing." lbirt see also,
e.g., Marcavage v. National Park Serv., 666 F.3d 856,
861 (3d Cir. 2012) ("[Glovernment officials are
presumed to act in good faith."); Troianov. Supervisors
of Elections, 382 F.3d 1276, 1283 (11th Cir. 2004)
("[W]hen the defendant is not a private citizen but a
government actor, there is a rebuttable presumption
that the objectionable behavior will not recur."). Other
courts go even further, flipping the burden of proof and
requiring the plaintiffto show it is "virtually certain"
that the government will reenact the challenged law.

Chemical Producers cf Distributors Assn v. Helhker,

463 F.3d 871, 878 (9th Cir. 2006). While some of these
courts have tried to reconcile their decisions with this
Court's precedents, others have simply declared that
the relevant portions of City of Mesquite are "dicta and
therefore not controlling." Federation ofAdvert. Indus.
Representatives, Inc. v. City of Chicago, 326 F.3d 924,
930.n_5 (7th Cir. 2003).
The city now asks the Court to endorse these lowercourt decisions and hold that governmental defendants
are entitled to a "presumption * * * that the new law
has been enacted in good faith and is intended to be
permanent." Suggestion at 17. This, the city says,
largely places "a governmental defendant's change in
law * * * beyond the reach of the voluntary cessation
doctrine." Id. at 18. That is not a good reason to treat
voluntary cessation by governmental defendants more
leniently than voluntary cessation by private

7

defendants. If anything, the • unique features of
governmental defendants suggest that they should be
held to an even higher standard.
3. First, government defendants, no less than
private ones, have a strong "incentive * * * to
strategically alter [their] conduct in order to prevent or
undo a ruling adverse to [their] interest:" E.I. Dupont
de NenlourS & Co. v. Invista.B.V, 473 F,8d 44, 47 (2d
Cir. 2006). In many circumstances, governmental
defendants are obligated to do so to defend the public
trust. The notion that states actors are inherently
trustworthy runs counter to the very premise of the
statute under which most litigation against state
actors takes place § 1983—which was enacted
because "Congress * * * realized that state officers
might, in fact, be antipathetic to the vindication of
[constitutional] rights." Mitchum v. Foster, 407 U.S.
225, 242 (1972).
This case is illustrative. The City didn't change its:
policy because it had :a Second Amendment epiphany
or felt a renewed commitment to protecting its citizens!
constitutional rights. Instead, it admits that it changed
its policy due to "this Court's grant of certiorarr—ix.,
because it thought it would lose. Suggestion at 13.
Nobody blames the city for wanting to avoid an adverse
ruling; but neither should courts presume
governmental defendants have purer motives than
private ones?
Second, far more than the average private
defendant, govermnental defendants are repeat
litigants. They employ a large share of the American
workforce, manage large bureaucracies, and face a
variety of lawsuits that can significantly affect their

8

internal operations across a variety of endeavors.
Thus, they have a powerful incentive to pick and
choose their cases— strategically mooting cases that
would set bad precedent, while fully litigating cases
that would set helpful precedent.
This is particularly common in the prison context,
where state prison systems often litigate cases to
judgment against pro se prisoners while attempting to
moot cases brought by competent counsel. In Florida,
for example, the state prison system was one of the last
large prison systems to refuse kosher diets to Orthodox
Jewish prisoners. Over the course of nearly a decade,
it litigated several cases to judgment against pro se
plaintiffs, obtaining rulings that it was not required'to
provide a kosher diet. See, e.g., Gardner v. Kiska, 444
F. App'x 353, 354 (11th Cir. 2011) (pro se prisoner
denied kosher diet, case taken to final judgment);
Linehan v. Crosby, No. 4:06-cv-00225-MPWCS, 2008
WL 3889604, at *1 (N.D. Fla. Aug. 20, 2008) (same).
But when it faced an Orthodox Jewish prisoner
represented by counsel, it attempted to moot the case
on the eve of oral argument in the Eleventh Circuit by
announcing a new kosher dietary policy that would be
implemented only at the plaintiffs prison unit. Rich,
716 F.3d at 532. The Ninth Circuit saw through this
transparent attempt to evade its jurisdiction, but the
point remains: Governmental defendants are
sophisticated, repeat litigators that will strategically
use voluntary cessation to try to pick and choose their
cases. See also Baranowskiv. Hart, 486 F.3d 112, 116
(5th Cir. 2007) (Texas prison system litigated pro se
kosher diet case to judgment); Moussazadeh v. Texas
Dep't of Criminal Justice, 703 F.3d 781, 786 (5th Cir.

9

2012) (Texas attempted to moot kosher diet case by
represented prisoner).
Similarly, in Heyer v. United States Bureau of
Prisons, a deaf prisoner sued the United States Bureau
of Prisons under RFRA and the First Amendment for
refusing to provide a sign-language interpreter for
religious services: 849 F.3d 202, 219-220 (4th Cir.
2017). Faced with sophisticated counsel, the
government tried to moot the case by offering an
affidavit stating that an interpreter would be provided
going forward "if necessary." Id. at 220. Although the
district court dismissed the claim as moot, the Fourth
Circuit held that an "equivoca[l]," "mid-litigation
changes of course" was not enough. Ibid. In Guzzi v.
Thompson, by contrast, facing a potentially farreaching appellate loss in a case involving the denial of
kosher diets, the Massachusetts prison system
successfully mooted an appeal by ordering that the
individual plaintiff receives kosher meals—without
agreeing to a system-wide change of policy. 2008 WL
2059321, at *1.
Private defendants, by contrast, don't live a
perpetual life. They don't have as many opportunities
to strategically moot a case so they can live to fight
another day. Instead, they must often win their case or
no case at all. Yet for private actors, this Court has
consistently enforced an appropriately high bar to
prove mootness in the face of voluntary cessation. In
Laidla w, for example, this Court enforced the
voluntary cessation doctrine despite the fact that "the
entire incinerator facility in Roebuck was permanently
closed, dismantled, and put up for sale, and all
discharges from the facility permanently ceased." 528

10

U.S. at 179. Similarly, City of Erie v. Pap's A.M. held
that closing down a business and selling the property
on which it operated was insufficient to moot the case.
529 U.S. 277, 287-288 (2000). These actions are far
more permanent than a mere change in government
policy—yet the Court declined to find mootness.
Third, governmental defendants enjoy statutory
and constitutional immunities that insulate them from
damages claims—making it much easier to
strategically moot cases. Sovereign immunity restricts
damages against the federal government and the
states. Lane v. Pena, 518 U.S. 187, 192 (1996).
Qualified immunity restricts damages against
government officials. E.g., Pearson v. Callahan, 555
U.S. 223, 231 (2009). Many statutes, like the
Administrative Procedure Act, the Prison Litigation
Reform Act, and the Religious Land Use and
Institutionalized Persons Act, waive the government's
immunity only for suits seeking injunctive or
declaratory relief. E.g., Smith v. Allen, 502 F.3d 1255,
1271 (11th Cir. 2007) ("Monetary relief is severely
circumscribed by the terms of the Prisoner Litigation
Reform Act"); Sossamon v. Texas,
563 U.S. 277, 280 (2011) (RLUIPA). And even under §
1983, damages are often unavailable given the
difficulty of assigning a dollar figure to the "abstract
value of a constitutional right." See Memphis Cmty.
Sch. Dist. v. Stachura, 477 U.S. 299, 308 (1986) ("[T]he
abstract value of a constitutional right may not form
the basis for § 1983 damages."). Thus, in many cases,
governmental defendants can be sued only for
injunctive or declaratory relief—even if their actions
have caused severe injury in the past.

11

Private defendants, by contrast, don't enjoy
governmental immunity. Thus, they're more likely to
be sued for damages. And the existence of a damages
claim prevents them from mooting the case by
voluntary cessation. Buckhannon Bd. & Care Home,
Inc. v. West Va. Dep't of Health & Human Res., 532
U.S. 598, 608-609 (2001).
Fourth, even when governmental defendants want
to make a policy change permanent, they face
limitations on their ability to do so. The board of a
private corporation can make agreements and adopt
policies that bind the corporation into the future.
Already, LLC v. Nike, Inc., 568 U.S. 85, 93 (2013)
(dismissing appeal because agreement mooting the
case was "unconditional and irrevocable" and thus
prevented the private defendant from ever changing its
position). But "statutes enacted 'by one Congress
cannot bind a later Congress, which remains free to
repeal the earlier statute." Dorsey v. United States,
567 U.S. 260, 274 (2012). The same is true of state
legislatures and administrative agencies. See Mayor of
the City of New York v. Council of the City of New
York, 38 A.D.3d 89, 97 (2006) (state legislature);
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2125 (2016) (agency).
Beyond that, the government officials charged with
making, enforcing, and defending the laws can change
with each election. New officials often take a different
view of the legality, applicability, or wisdom of a policy
adopted by their predecessors. See National Cable &
Telecomms. Ass'nv . Brand X Internet Servs., 545 U.S.
967, 981-982 (2005) ("a change in administrations"
may result in "reversal of agency policy"); see also, e.g.,

12

Transcript of Oral Argument at 32, US Airways, Inc. v.
McCutchen, 569 U.S. 88 (2013) (No. 11-1285) (Roberts,
C.J.) ("It's perfectly fine if you want to change your
position, but don't tell us it's because the Secretary has
reviewed the matter further
*. Tell us it's because
there is a new Secretary."). And even when the same
officials remain in office, they sometimes change their
position based on the shifting political climate. This is
especially true on controversial issues, where elected
officials have an incentive "to take litigation positions
that reflect their legal policy preferences and resonate
with their political base." See Devins & Prakash, Fifty
States, Fifty Attorneys General, and Fifty Approaches
to the Duty to Defend, 124 Yale L.J. 2100, 2149 (2015).
For example, in ACLU of Massachusetts v. United
States Conference of Catholic Bishops, the ACLU
alleged that the federal government violated the
Establishment Clause by awarding a grant to a
religious organization to care for survivors of human
trafficking, because the religious organization would
not use the funds to provide abortions or contraception
services. 705 F.3d 44, 48 (1st Cir. 2013). During the
litigation, a new President took office, and the agency
let the grants expire. Id. at 50-51, 56. The government
then argued that this change in conduct—spurred by
the "different policy perspectives" of the new
administration—mooted the case, and the court
agreed_ Id_ at 5156_ Predictably, when the Presidency
changed hands again, the agency began awarding the
same type of grants to the same religious organization,
and the ACLU sued again. ACLU of N Cal. v. Azar,
No. 16CV- 03539-LB, 2018 WL 4945321 (N.D. Cal. Oct.
11, 2018). That dispute was not resolved until almost

13

a decade after the first lawsuit was filed. See also, e.g.,
Petition for Writ of Certiorari at 1-3, Little Sisters of
the Poor Jeanne Jugan Residence v California, No.
181192 (U.S. Mar. 13, 2019) (recounting "parade of
dueling "contraceptive] mandate cases" occasioned by
one administration's 'imposition of requirement that
objecting religious employers provide health plans that
include contraceptives and the next administration's
exemption of those objectors); Reply to Pls.' Resp. to
Notice Regarding Issuance of Notice of Proposed
R,ulemaking to Amend Challenged Regulations at 1-2,
Franciscan Alliance, Inc. v. Azar, No. 16-108 (N.D. Tex.
June 12, 2019), ECF No. 163 (arguing that current
administration's proposed repeal of previous
administration's regulatory definition of "sex" to
include "gender identity" would "likely moot" challenge
to previous version of regulation).2
Examples like these demonstrate why the City's
emphasis
on "good faith" misses the mark. Suggestion
.
at 17. The premise underlying the: "absolutely clear"
standard is not that defendants may harbor a secret,
nefarious intent to resume the challenged conduct at
the first opportunity, but that they are free to reinitiate
it in the future (whether they planned to do so all along
or not). That freedom is what creates the continuing
harm and the potential waste of judicial resources—
the "argument from sunk costs" to which this Court
has attributed the "absolutely clear" standard.
Laidlaw, 528 U.S. at 191-193. And it applies just as
much to governmental defendants as to private ones.
If anything, a government's change in policy is more
troubling in circumstances like this one—where it is

14

motivated by fear of a Supreme Court loss—than when
it is motivated by a change in administration that has
different policy priorities.
Finally, a key purpose served by the doctrine of
voluntary cessation is to vindicate the public's interest
in having "the legality of the [challenged] practices
settled." United Statesv. W.T. Grant Co., 345 U.S. 629,
632 (1953); see also Odegaard, 416 U.S. at 318. This
interest is at its peak when a governmental defendant
is accused of violating constitutional rights—an issue
which may have broad ramifications for the general
public. Thus, weakening the doctrine of voluntary
cessation for governmental defendants has it precisely
backwards: It makes it harder for courts to settle the
legality of practices with broad public implications,
and easier to resolve parochial, private disputes.
In short, there is no reason to give governmental
defendants special deference when trying to pick and
choose which cases reach final judgment. If anything,
governments should be held to a higher standard
because they have more opportunity and ability to
strategically moot cases, and because the harm to the
public interest is greater.
CONCLUSION
This case illustrates why governmental defendants
should not get special treatment when trying to moot a
case. The city has just as much incentive as a private
defendant to avoid an adverse ruling. It is a
sophisticated, repeat litigator with an incentive to pick
and choose its cases. It benefits from immunities that
make it harder to bring viable claims for damages,
despite past alleged violations of constitutional rights.
Any number of political circumstances could cause the

15

city to resume its challenged conduct. The case cuts to
the heart of important constitutional issues with broad
public interest. Regardless of what the Court
ultimately decides on the question of mootness or on
the merits, it should reject the claim that
governmental defendants get special treatment under
the doctrine of voluntary cessation.
"I declare (or certify, verify, or state) under penalty of
perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on (8/6/2021).
("s"/Cecile A. Brown)".

Respectfully submitted.

Cecile A. Brown
Pro Se/Petitioner/Appellant of Record
3222 Violet St.,
Apt. A
Alexandria, LA 71301
Browneecileavahooxora
(318) 528- 0335
Pro Se for Appellant/Petitioner
AUGUST 6, 2021

1

No.

3n Me i§uprente Court of the Einiteb
btateli
Cecile A. Brown,
Petite zier
v.
Solicitor. General of the U.S.,
Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

CONTENTS OF APPENDIX APPELLANT OF PRO SE
FOR DECEASED Vet. William H. Ellis IN SUPPORT OF
APPELLANT RESPECTING MOOTNESS

Cecile A. Brown, APPELLANT
Pro se of Record
3222 Violet St., Apt. A
Alexandria, LA 71301
(318) 528-0335
browncecihoo.wm
Pro Se for Appellant

2

Appendix A to the Brief
"No judicially noticeable fact could contradict Brown's
alleged facts claim." Whether or not there are judicially
noticeable facts available to contradict them, but a
complaint cannot be dismissed simply because the court
finds the allegations to be improbable or unlikely."
1. The Court of Appeals incorrectly limited the power
granted the courts to dismiss a frivolous case under
§ 1915(d). Section 1915(d) gives the courts "the
unusual power to pierce the veil of the complaint's
factual allegations and dismiss those claims whose
factual contentions are clearly baseless." Id., at
327. Thus, the court is not bound, as it usually is
when making a determination based solely on the
pleadings, to accept without question the truth of
the plaintiffs allegations. However, in order to
respect the congressional goal of assuring equality
of consideration for all litigants, the initial
assessment of the in forma pauperis plaintiffs
factual allegations must be weighted in the
[plaintiff's favor]. A factual frivolousness finding is
appropriate when the facts alleged rise to the level
of the irrational or the wholly incredible, whether
or not there are judicially noticeable facts available
to contradict them, but a complaint cannot be
dismissed simply because the court finds the
allegations to be improbable or unlikely. The
"clearly baseless" guidepost need not be defined
with more precision, since the district courts are in
the best position to determine which cases fall into
this category, and since the statute's instruction

3

allowing dismissal if a court is "satisfied" that the
complaint is frivolous indicates that the
frivolousness decision is entrusted to the discretion
of the court entertaining the complaint. Pp.31-33.
2. Because the frivolousness determination is a
discretionary one, a § 1915(d) dismissal is properly
reviewed for an [abuse of that discretion]. It would
be appropriate for a court of appeals to consider,
among other things, whether the plaintiff was
proceeding pro se, whether the district court
inappropriately resolved genuine issues of disputed
fact, whether the court applied erroneous legal
conclusions, whether the court has provided a
statement explaining the dismissal that facilitates
intelligent appellate review, and whether the
dismissal was with or without prejudice. With
respect to the last factor, the reviewing court
should determine whether the district-court abUsed
its discretion by dismissing the complaint with
prejudice or without leave to amend if it appears
that the allegations could be remedied through
more specific pleading, since dismissal under §
1915(d) could have a res judicata effect on
frivolousness determinations for future in forma
pauperis petitions. This Court expresses no opinion
on the Court of Appeals' rule that a pro se litigant
bringing suit in forma pauperis is entitled to notice
and an opportunity to amend the complaint to
overcome any deficiency unless it is clear that no
amendment can cure the defect. Pp. 33-35.

4

929 F.2d 1374, vacated and remanded.

See denton v hernandez, 504 u.s. 25, 33 1992.
As we stated in Neitzke, a court may dismiss a
claim as factually frivolous only if the facts alleged
are "clearly baseless," 490 U. S., at 327, a category
encompassing allegations that are "fanciful," id., at
325, "fantastic," id., at 328, and "delusional," ibid.
As those words suggest, a finding of factual
frivolousness is appropriate when the facts alleged
rise to the level of the irrational or the wholly
incredible, whether or not there are judicially
noticeable facts available to contradict them. An in
forma pauperis complaint may not be dismissed,
however, simply because the court finds the
plaintiffs allegations unlikely. Some improbable
allegations might properly be disposed of on
summary judgment, but to dismiss them as
frivolous without any factual development is to
disregard the age-old insight that many allegations
might be "strange, but true; for truth is always
strange, Stranger than fiction." Lord Byron, Don
Juan, canto XIV, stanza 101 (T. Steffan, E. Steffan
& W. Pratt eds. 1977).

Therefore, if it appears that frivolous factual
allegations could be remedied through more specific
pleading, a court of appeals reviewing a § 1915(d)
disposition should consider whether the District

Court abused its discretion by dismissing the
complaint with prejudice or without leave to
amend. Because it is not properly before us, we
express no opinion on the Ninth Circuit rule,
applied below, that a pro se litigant bringing suit
in
forma pauperis is entitled to notice and an
opportunity to amend the complaint to overcom
e
any deficiency unless it is clear that no amendm
ent
can cure the defect. E. g., Potter v. McCall, 433
F.
2d 1087, 1088 (1970); Noll v. Carlson, 809 F. 2d
1446 (1987).
7. With respect to this last factor: Because a §
1915(d) dismissal is not a dismissal on the meri
ts,
but rather an exercise of the court's discretion
under the in forma pauperis statute, the dismissal
does not prejudice the filing of a paid complain
t
making the same allegations. It could, however
,
have a res judicata effect on frivolousness
determinations for future in forma pauperis
petitions.
See, e. g., Bryant v. Civiletti, 214 U. S. App. D.
C.
109, 110-111, 663 F. 2d 286, 287-288, n. 1 (198
1) (§
1915(d) dismissal for frivolousness is res judi
cata);
Warren v. McCall, 709 F. 2d 1183, 1186, and n.
7 (CA7
1983) (same); cf. Rogers v. Bruntrager, 841 F. 2d
853,
855 (CA8 1988) (noting that application of res judic
ata
principles after § 1915(d) dismissal can be "som
ewhat
problematical"). Therefore, if it appears that frivo
lous
factual allegations could be remedied through
more
specific pleading, a court of appeals reviewin
ga§
1915(d) disposition should consider whether
the
District Court abused its discretion by dismissin
g the

6

complaint with prejudice or withou
t leave to amend.
Because it is not properly before
us, we express no
opinion on the Ninth Circuit rule, app
lied below, that
a pro se litigant bringing suit in
forma pauperis is
entitled to notice and an opportu
nity to amend the
complaint to overcome any deficiency
unless it is clear
that no amendment can cure the def
ect. E. g., Potter v.
McCall, 433 F. 2d 1087, 1088 (1970)
; Noll v. Carlson,
809 F. 2d 1446 (1987).
"I declare (or certify, verify, or stat
e) under penalty of
perjury under the laws of the United
States of America
that the foregoing is true and correc
t. Executed on
(8/6/2021).
("s"/Cecile A. Brown)".
Respectfully Submitted,
"/s/(Cecile A. Brown)"
Cecile A. Brown
Signature
Name
3222 Violet St. A
Alexandria, LA 71301

8/6/2021
Date

Name of court: U.S. Court of Appeals
for the Ninth
Circuit
Title: Statement why appeal should
move forward.
Date of Entry: July 3, 2021.
No. 21-35383
No. 21-35386
No.35428; Name of Judges who acte
d on appeal: BARRY G.

SILVERMAN, JACQUELINE H. NGU

YEN and RYAN D. NELSON.

No.

31n the 6upretue Court of tije iuiteb
tate5
Cecile A. Brown,
Petitioner,
v.
Solicitor General of the U.S.,
Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
CONTENTS OF APPENDIX APPELLANT OF PRO SE
FOR DECEASED Vet. William H. Ellis IN SUPPORT OF
APPELLANT RESPECTING MOOTNESS

Cecile A. Brown, APPELLANT,
Pro se of Record
3222 Violet St.,
Apt. A
Alexandria, LA 71301
(318) 528-0335
browncecile@yahoo.com
Pro Se for Appellant

1

Appendix C to Brief
Government Abuse of the Voluntary-Cessation
Doctrine
II. THE SUPREME COURT HAS NEVER SUGGESTED
THAT GOVERNMENT DEFENDANTS SHOULD GET
SPECIAL TREATMENT UNDER THE VOLUNTARYCESSATION DOCTRINE
The Court has consistently applied the same strict
voluntary-cessation standard across the board. Even
when the government has changed the challenged law,
policy, or practice, it must show— without any
presumption or burden-shifting—that it is "absolutely
clear" the conduct will not resume. 44
Parents Involved in Community Schools v. Seattle School
District No. 1 reaffirmed the Supreme Court's view that
"[v]oluntary cessation does not moot a case or controversy
unless 'subsequent events ma[kel it absolutely clear that
the allegedly wrongful behavior could not reasonably be
expected to recur," even in the case of a government
defendant such as the school district there. 47
Further confirming this point, the Supreme Court in
Northeastern Florida Chapter of the Associated General
Contractors of America v. City of Jacksonville applied
Mesquite and explained that the issue in Mesquite had
not gone moot "because the defendant's 'repeal of the
objectionable language would not preclude it from
reenacting precisely the same provision if the District
Court's judgment were vacated."' 48 The "mere risk" of
reenactment in Mesquite was what kept the case alive. 49

2

Simply put, nothing in the Supreme Court's voluntarycessation jurisprudence suggests that the standard is
different for government defendants. Quite the opposite:
the Court has unwaveringly applied Mesquite's
"absolutely clear" standard.

III. COURTS SHOULD REJECT A PRESUMPTION IN
FAVOR OF GOVERNMENT DEFENDANTS WHEN
APPLYING VOLUNTARY - CESSATION PRINCIPLES
First, as the prisoner and other examples above
demonstrate, government defendants are no less
vulnerable than private ones to the temptation that
motivates the voluntary-cessation doctrine— the desire
"to strategically alter [their] conduct in order to prevent
or undo a ruling adverse to [their] interest." 62 Lawyers
representing government entities in litigation have the
same duty to zealously advocate for their clients as
lawyers representing private clients.
Government defendants therefore have a strong incentive
to be strategic about which cases they litigate to
judgment—to litigate fully only those cases that they
think they will win and to moot the rest, preventing
unfavorable precedent that could affect their operations in
a variety of different areas.
Weakening voluntary cessation for government
defendants therefore makes it harder for courts to resolve
the sorts of legal questions that most need resolving. It
also makes it more difficult for plaintiffs to prove that a
constitutional right is "clearly established"—a necessary
prerequisite for overcoming qualified immunity, and thus

3

for holding government officials liable for constitutional
violations even in those cases that do not go moot. 9
Courts should decline to give government defendants
special treatment in applying the voluntary-cessation
doctrine. A close look at its purposes shows that
government defendants have as much or more incentive
as do private defendants to engage in the type of conduct
the doctrine is designed to discourage—and when they do,
they create especially severe forms of the types of harms
that the doctrine is designed to prevent.
Like private actors, governments can and will seek to
manipulate a court's jurisdiction to moot an unfavorable
case. But unlike private actors, if a government succeeds
in insulating its conduct from judicial review, the
consequences are far more dire: the coercive power of the
political branches is left unchecked by the judiciary, 94
and important constitutional issues may remain
unresolved, permitting future government actors to
engage in identical illegal conduct. It is of course possible
that in many instances the government's change of policy
reflects a true change of heart. But both law and
experience undermine the notion that courts should treat
government defendants as inherently more honest and
trustworthy than private ones.
Governments are sophisticated, repeat litigators,
frequently immune from claims for damages. As
explained above, evidence confirms theory: government
entities can and do selectively change laws and policies
mid-litigation to advance their longer-term interests. And
worse still, lower-court deference to the government's

voluntary cessation has been fashioned out of whole cloth.
It has no basis in the Supreme Court's precedent, as the
Court has consistently applied the same "absolutely clear"
standard to all defendants.
Yet many lower courts persist in this error, frequently
citing and applying cases that favor government
assertions of mootness—even at times requiring plaintiffs
to produce evidence that the government's change in the
law is insincere (a potentially impossible task). But all is
not lost. By agreeing to consider the mootness issue in
NYSRPA, the Supreme Court now has the opportunity to
set the record straight and confirm that government
defendants are subject to the same voluntary-cessation
standard as everyone else. 95 This would not only correct
lower courts' interpretation of Supreme Court precedent,
but would protect and advance the important interests
underpinning the voluntary-cessation doctrine.
The Supreme Court has long interpreted this language to
mean that federal courts have jurisdiction to decide only
those cases in which the parties have concrete interests
that will be resolved by a judicial decision. Those tangible
interests must be present at every stage of the lawsuit,
the court has said, from initial filing to final decision.
There are exceptions to the mootness doctrine. Perhaps
the most notable exception applies when the case involves
circumstances that exist only for a short, fixed time period
and that may be over by the time the litigation reaches
the Supreme Court. In cases involving pregnancy and
abortion, for example, a woman will almost certainly have
either terminated the pregnancy or delivered a baby well

before the dispute can reach the appellate stages. The
Supreme Court has carved out an exception for cases that
are "capable of repetition, yet evading review." In other
words, if the issues may arise again and will often or
always face timing challenges, the federal courts should
not dismiss such cases for mootness and may continue to
hear the litigation.
Another exception to mootness occurs when the defendant
in the case voluntarily decides to halt the contested
practice that is the basis of the lawsuit. Because the
defendant's cessation of activity is voluntary, the theory
goes, the defendant could also decide to resume the
contested activity after the case is dismissed as moot.
Therefore, courts should be cautious in dismissing for
mootness in such circumstances.
The Supreme Court should not dismiss case that have
become moot after the Court has taken them for review.
Honig v. Doe, 484 U.S. 305, 329 (1988) (Rehnquist, C.J.,
concurring).
*Please determine the legality of the practice and issue
ruling according to a matter of law.

A major consideration in the disposition of moot appeals
should be, of course, that injustice be avoided in the
immediate situation, and in certain cases this means that
vacation rather than dismissal is the preferable decree. A
prospective order to comply with a statute is a simple
illustration. If the statute is repealed while an appeal is
pending, quite clearly the Supreme Court should vacate
so that the defendant cannot be required to perform in
accordance with the repealed statute.8 ' Another

6

illustration is where the moot ness can be remedied by a
proper amendment of the pleadings. In such cases, the
Court should remand to the trial court for further
proceedings.8 2 In some situations, the continuation of an
order or judgment may hamper a person or tend to bring
him into disrepute. If there is a mandamus order to a
public official, and the order is complied with before the
appeal is heard, it probably is desirable to vacate for this
reason.8 3 Other situations may involve paternity or
bastardy proceedings, where marriage has subsequently
occurred. In such cases, the interest of the child as well as
the parties in litigation must be considered.
"Fraud On the Court by An Officer of The Court" And
"Disqualification Of Judges, State and Federal"
Who is an "officer of the court"?
A judge is an officer of the court, as well as are all
attorneys. A state judge is a state judicial officer,
paid by the State to act impartially and lawfully. A
federal judge is a federal judicial officer, paid by the
federal government to act impartially and lawfully.
State and federal attorneys fall into the same
general category and must meet the same
requirements. A judge is not the court. People v.
Zajic, 88 Ill.App.3d 477, 410 N.E.2d 626 (1980).
What is "fraud on the court"?
Whenever any officer of the court commits fraud
during a proceeding in the court, he/she is engaged
in "fraud upon the court". In Bulloch v. United

7

States, 763 F.2d 1115, 1121 (10th Cir. 1985), the
court stated "Fraud upon the court is fraud which
is directed to the judicial machinery itself and is
not fraud between the parties or fraudulent
documents, false statements or perjury. ... It is
where the court or a member is corrupted or
influenced or influence is attempted or where the
judge has not performed his judicial function --thus where the impartial functions of the court
have been directly corrupted." "Fraud upon the
court" has been defined by the 7th Circuit Court of
Appeals to "embrace that species of fraud which
does, or attempts to, defile the court itself, or is a
fraud perpetrated by officers of the court so that
the judicial machinery cannot perform in the usual
manner its impartial task of adjudging cases that
are presented for adjudication." Kenner v. C.I.R.,
387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d
ed., p. 512, ¶ 60.23. The 7th Circuit further stated
"a decision produced by fraud upon the court is not
in essence a decision at all, and never becomes
final."
3. What effect does an act of "fraud upon the court"
have upon the court proceeding?
"Fraud upon the court" makes void the orders and
judgments of that court. It is also clear and wellsettled Illinois law that any attempt to commit
"fraud upon the court" vitiates the entire
proceeding. The People of the State of Illinois v.
Fred E. Sterling, 357 Ill. 354; 192 N.E. 229 (1934)

8

("The maxim that fraud vitiates every transaction
into which it enters applies to judgments as well as
to contracts and other transactions."); Allen F.
Moore v. Stanley F. Sievers, 336 Ill. 316; 168 N.E.
259 (1929) ("The maxim that fraud vitiates every
transaction into which it enters ..."); In re Village of
Willowbrook, 37 Ill.App.2d 393 (1962) ("It is
axiomatic that fraud vitiates everything.*
Dunham v. Dunham, 57 Ill.App. 475 (1894),
affirmed 162 Ill. 589 (1896); Skelly Oil Co. v.
Universal Oil Products Co., 338 Ill.App. 79, 86
N.E.2d 875, 883-4 (1949); Thomas Stasel v. The
American Home Security Corporation, 362 Ill. 350;
199 N.E. 798 (1935). Under Illinois and Federal
law, when any officer of the court has committed
"fraud upon the court", the orders and judgment of
that court are void, of no legal force or effect.
4. What causes the "Disqualification of Judges?"
Federal law requires the automatic disqualification
of a federal judge under certain circumstances. In
1994, the U.S. Supreme Court held that
"Disqualification is required if an objective observer
would entertain reasonable questions about the
judge's impartiality. If a judge's attitude or state of
mind leads a detached observer to conclude that a
fair and impartial hearing is unlikely, the judge
must be disqualified." [Emphasis added]. Liteky v.
U.S., 114 S.Ct. 1147, 1162 (1994). Courts have
repeatedly held that positive proof of the partiality
of a judge is not a requirement, only the

9

appearance of partiality. Liljeberg v. Health
Services Acquisition Corp., 486 U.S. 847, 108 S.Ct.
2194 (1988) (what matters is not the reality of bias
or prejudice but its appearance); United States v.
Balistrieri, 779 F.2d 1191 (7th Cir. 1985) (Section
455(a) "is directed against the appearance of
partiality, whether or not the judge is actually
biased.") ("Section 455(a) of the Judicial Code, 28
U.S.C. §455(a), is not intended to protect litigants
from actual bias in their judge but rather to
promote public confidence in the impartiality of the
judicial process."). That Court also stated that
Section 455(a) "requires a judge to recuse himself in
any proceeding in which her impartiality might
reasonably be questioned." Taylor v. O'Grady, 888
F.2d 1189 (7th Cir. 1989). In Pfizer Inc. v. Lord,
456 F.2d 532 (8th Cir. 1972), the Court stated that
"It is important that the litigant not only actually
receive justice, but that he believes that he has
received justice." The Supreme Court has ruled and
has reaffirmed the principle that "justice must
satisfy the appearance of justice", Levine v. United
States, 362 U.S. 610, 80 S.Ct. 1038 (1960), citing
Offutt v. United States, 348 U.S. 11, 14, 75 S.Ct.
11, 13 (1954). A judge receiving a bribe from an
interested party over which he is presiding, does
not give the appearance of justice. "Recusal under
Section 455 is self-executing; a party need not file
affidavits in support of recusal and the judge is
obligated to recuse herself sua sponte under the
stated circumstances." Taylor v. O'Grady, 888 F.2d
1189 (7th Cir. 1989). Further, the judge has a legal

10

duty to disqualify himself even if there is no motion
asking for his disqualification. The Seventh Circuit
Court of Appeals further stated that "We think that
this language [455(a)] imposes a duty on the judge
to act sua sponte, even if no motion or affidavit is
filed." Balistrieri, at 1202. Judges do not have
discretion not to disqualify themselves. By law,
they are bound to follow the law. Should a judge
not disqualify himself as required by law, then the
judge has given another example of his
"appearance of partiality" which, possibly, further
disqualifies the judge. Should another judge not
accept the disqualification of the judge, then the
second judge has evidenced an "appearance of
partiality" and has possibly disqualified
himself/herself. None of the orders issued by any
judge who has been disqualified by law would
appear to be valid. It would appear that they are
void as a matter of law, and are of no legal force or
effect. Should a judge not disqualify himself, then
the judge is violation of the Due Process Clause of
the U.S. Constitution. United States v. Sciuto, 521
F.2d 842, 845 (7th Cir. 1996) ("The right to a
tribunal free from bias or prejudice is based, not on
section 144, but on the Due Process Clause.").
Should a judge issue any order after he has been
disqualified by law, and if the party has been
denied of any of his / her property, then the judge
may have been engaged in the Federal Crime of
"interference with interstate commerce". The judge
has acted in the judge's personal capacity and not
in the judge's judicial capacity. It has been said

11

that this judge, acting in this manner, has no more
lawful authority than someone's next-door neighbor
(provided that he is not a judge). However, some
judges may not follow the law. If you were a no
represented litigant, and should the court not
follow the law as to non-represented litigants, then
the judge has expressed an "appearance of
partiality" and, under the law, it would seem that
he/she has disqualified him/herself. However, since
not all judges keep up to date in the law, and since
not all judges follow the law, it is possible that a
judge may not know the ruling of the U.S. Supreme
Court and the other courts on this subject. Notice
that it states "disqualification is required" and that
a judge "must be disqualified" under certain
circumstances. The Supreme Court has also held
that if a judge wars against the Constitution, or if
he acts without jurisdiction, he has engaged in
treason to the Constitution. If a judge acts after he
has been automatically disqualified by law, then he
is acting without jurisdiction, and that suggest that
he is then engaging in criminal acts of treason, and
may be engaged in extortion and the interference
with interstate commerce. Courts have repeatedly
ruled that judges have no immunity for their
criminal acts. Since both treason and the
interference with interstate commerce are criminal
acts, no judge has immunity to engage in such acts.
>HAS NO IMMUNITY IN SUCH ACTS<.

12

"I declare (or certify, verify, or state) under penalty of perjury
under the laws of the United States of America that the
foregoing is true and correct. Executed on (8/6/2021).
("s"/Cecile A. Brown)".

Respectfully submitted,

Cecile A. Brown

Appellant, Pro Se of Record
3222 Violet St Apt. A
Alexandria; LA 71301
(318) 528-o335
browncecile@yahoo.corn

August 6, 2021
Contents of Appendix:
z

Name of court: U.S. Court of Appeals for the Ninth
Circuit
Title: Govt. Abuse of the voluntary-cessation doctrine.
Date of Entry: July 30, 2021.
No. 21-35383
No. 21-35386
No.35428
Name of Judges who acted on appeal: BARRY G.
SILVERMAN, JACQUELINE H. NGUYEN and RYAN
D. NELSON

13

